APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming Judgment of the District Court
entered July 1, 2020....................................... 1a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming Judgment of the District Court
entered July 1, 2020..................................... 29a
Judgment of
The United States District Court
For the Eastern District of Virginia
Re: Entering Judgment in Favor of Defendant
entered August 23, 2018 .............................. 30a
Memorandum Opinion and Order of
The United States District Court
For the Eastern District of Virginia
Re: Entering Judgment in Favor of Defendant
entered August 22, 2018 .............................. 31a
Order of
The United States District Court
For the Eastern District of Virginia
Re: Granting Defendant’s Motion In Limine
entered April 20, 2018 ................................. 55a

iia
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing
entered July 28, 2020................................... 63a

1a
[ENTERED: July 1, 2020]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2083
ARLENE FRY,
Plaintiff – Appellant,
v.
RAND CONSTRUCTION CORPORATION
Defendant – Appellee.

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Anthony
John Trenga, District Judge. (1:17-cv-00878-AJTTCB)
Argued: December 11, 2019
Decided: July 1, 2020

Before NIEMEYER, MOTZ, and RICHARDSON,
Circuit Judges.

2a
Affirmed by published opinion. Judge Richardson
wrote the opinion, in which Judge Niemeyer joined.
Judge Motz wrote a dissenting opinion.
ARGUED:
Adam
Augustine
Carter,
EMPLOYMENT LAW GROUP, Washington, D.C.,
for Appellant. James Edward Tysse, AKIN GUMP
STRAUSS HAUER & FELD LLP, Washington, D.C.,
for Appellee. ON BRIEF: Jeanne Louise Heiser, R.
Scott Oswald, Nicholas Woodfield, EMPLOYMENT
LAW GROUP, Washington, D.C., for Appellant.
Anthony T. Pierce, Nathan J. Oleson, Lide E.
Paterno, Erica E. Holland, AKIN GUMP STRAUSS
HAUER & FELD LLP, Washington, D.C., for
Appellee.
RICHARDSON, Circuit Judge:
Arlene Fry alleges her former employer, Rand
Construction Corporation, unlawfully fired her for
taking leave under the Family Medical Leave Act
(“FMLA”). A jury agreed and returned a verdict in
Fry’s favor. Yet the district court entered judgment
for Rand. Fry, according to the district court, failed
to present sufficient evidence for a reasonable jury to
find that Rand’s justification for the termination was
false and merely a pretext for retaliation. We agree
with the district court and affirm.

3a

I.

Background

A.

Fry’s employment at Rand

For more than eight years, Arlene Fry served
as an administrative assistant to Linda Rabbitt,
Rand’s Chief Executive Officer and founder. Among
other administrative tasks, Fry coordinated
Rabbitt’s schedule, emails, and calendar.
In 2016, problems with Fry’s performance
began to simmer. Among other errors, Fry failed to
inform Rabbitt about a change in the schedule for a
delivery, failed to check Rabbitt’s emails, failed to
coordinate with Rabbitt’s driver so that he could pick
Rabbitt up, and failed to complete an assigned task.
See generally Appellant’s Br. 3 (admitting Fry’s
employment at Rand was not without “occasional
problems”). As a result, Rabbitt expressed repeated
concerns about Fry’s performance in March, May,
July, August, and September 2016. In an email in
September 2016, Rabbitt explained that Fry’s job
“may [well] be in jeopardy” considering her
performance problems. J.A. 1263.
Rabbitt’s problems with Fry boiled over in
early November 2016. According to Rabbitt, Fry
almost caused her to miss a meeting with Rand’s
largest client. Rabbitt immediately complained
about the mistake to Fry. Rabbitt also raised the
issue to Rand’s Chief Operating Officer, Kurt
Haglund, writing that Fry was “making too many
mistakes” and Rand would “need to replace her” if
she “blew it” on this “critical” task. J.A. 1264.
Because Fry managed Rabbitt’s emails, Fry saw this

4a
message as soon as she arrived to work on November
3, 2016. Fry then approached Haglund before
Haglund could meet with Rabbitt. Haglund
explained that he personally did not want to replace
Fry, and he believed Rabbitt was just angry and
upset. According to Fry, Rabbitt continued to be
“furious” and would not speak to her. J.A. 443.
Rabbitt later confirmed that Fry had made the
mistake. The next day, Rabbitt listed Fry’s positive
and negative attributes as an employee (and the
negatives outnumbered the positives). See J.A. 1266.
At that time, Rabbitt was “sort of in [her] head just
proofing out that [she] just needed to do this. [She]
just needed to replace Arlene Fry as [her] executive
assistant.” J.A. 618. Rabbitt gave the list to Rand’s
Human Resources Director, Violetta Bazyluk, who
understood that Rabbitt “did not want Ms. Fry to be
her assistant anymore. [Rabbitt] wanted to get rid of
her and be done with this. . . . [E]mployment will be
terminated.” J.A. 203–04. And Rabbitt later called
Haglund about Fry’s performance, “extremely angry
and very frustrated.” J.A. 334.
Less than two weeks later, another incident
reinforced Rabbitt’s decision to terminate Fry. On
November 15, Rabbitt rushed through traffic for an
early-morning meeting in Washington, D.C., only to
learn that the meeting had been changed to a
conference call. Rabbitt, angry and embarrassed,
blamed Fry for failing to communicate the change.
The ordeal confirmed for Rabbitt that it was “time
for us to separate” because Fry was not providing
effective help. J.A. 624. Rabbitt spoke with Bazyluk

5a
and “reconfirmed that there will be an end to [Fry’s]
employment.” J.A. 205.
After learning that Rabbitt was again furious
with her, Fry scheduled an appointment with her
doctor. Unknown to both Rabbitt and Rand, Fry had
been diagnosed with multiple sclerosis in 2010. Fry
had not told Rand about the diagnosis in the six
years since she received it. At the appointment two
days after her latest error, Fry asked her doctor if
she now qualified for “disability.” J.A. 650. Fry’s
doctor said that she lacked the necessary “objective
limitation” to be considered disabled. Id. The doctor
said that he “generally . . . tr[ies] to keep [his]
patients as active and working as long as possible.
And there was not at that time, in [his] estimation,
a significant finding to support disability.” J.A. 651.
The doctor also had a “[l]ong discussion [with Fry]
about
medications,
changing
jobs,
stress
management[,] etc.” J.A. 1463.
Four days after the appointment, Fry
informed Rabbitt and Bazyluk about her multiple
sclerosis diagnosis and requested two weeks of
FMLA leave. Rand approved Fry’s request, and Fry’s
leave started the next week. Fry’s doctor did not
certify her FMLA leave until about a week and a half
after her leave started.
When Fry returned to Rand on December 12,
2016, she was met with harsh comments from
Rabbitt. In the weeks before Christmas, other
negative confrontations broke out, and Bazyluk told
Fry that the relationship with Rabbitt had become
“toxic.” J.A. 415. Bazyluk then asked Fry if she

6a
would be willing to work for Haglund instead of
Rabbitt. Fry agreed to change positions and to train
Rabbitt’s new assistant. 1
The next day, Fry met with Haglund and
Bazyluk. According to Fry, Haglund told her that he
“d[id] not have enough work to justify [having] an
assistant of [his] own.” J.A. 425. Although Haglund
and Bazyluk explained that they had tried to find
other work for Fry, no one needed anything done. “So
[they could] not find a full-time job for her.” Id.
Bazyluk suggested that Fry work for Rabbitt until
Rand hired a new assistant. Then Fry could move to
a part-time position until her last day at Rand: June
30, 2017.
In early January 2017, Haglund sent Fry a
formal letter that explained the reasons for her
“departure from the Company” and described the
“transition plan” for Fry. J.A. 1134. Several weeks
later, Fry emailed Haglund to complain—for the first
time—about “the discrimination and retaliation”
that she had suffered at Rand. J.A. 1067. She
“reject[ed] the company’s request [to end her
employment] because it is retaliation for my
protected leave-taking and my revealing to the
company my disability and serious health condition.”
Id. Haglund responded on January 27 to rebut Fry’s
alleged discrimination and retaliation. Haglund
Around this time, Rabbitt told Fry, Bazyluk, and Haglund,
“Arlene works for me. She works for me. Do you understand?”
J.A. 421–23; see J.A. 309–10. In context, Rabbitt was
complaining about Fry’s surprise mid-day absence. Fry had
sought to explain that she told others that she had an
appointment. But Rabbitt thought telling others was
insufficient, as Fry worked for Rabbitt. See, e.g., J.A. 309.
1

7a
concluded: “We will need to make a final decision as
to where to go from here. Your performance in
your current position was not satisfactory to
[Rabbitt], and there is currently no open position for
which you are qualified and you could transfer.” J.A.
1126.
Fry then emailed Haglund, disagreeing “with
the vast majority of [his] comments.” J.A. 1154. Fry
conceded that Rabbitt “was upset with [her] on
November 3 for something [she] allegedly did
incorrectly.” But she claimed Haglund’s January 27
email was the first time she learned that Rabbitt’s
anger “was allegedly because of a mistake in the
scheduling of an important conference call.” J.A.
1155. Fry also said that, since returning from leave,
she had been “met with screaming accusations from
[Rabbitt] that [Fry] was lying about [her] leave.” Id.
The next day, Rand officially terminated Fry’s
employment.

B.

Fry’s lawsuit

Fry sued Rand in federal court. Among other
claims, Fry alleged that Rand fired her in retaliation
for taking FMLA leave. Before trial, Fry moved to
admit testimony from Susan Boyle, a former Rand
employee terminated in 2008 after working as
Rabbitt’s executive assistant for seven months. Boyle
took leave for six weeks under Rand’s non- FMLA
medical leave policy to recover from a surgery. When
Boyle did not return to work after her leave, she
claimed that Rand terminated her, although Rand
contended that Boyle resigned. Fry sought to offer
Boyle’s testimony to show “evidence of [Rand’s]

8a
intent in terminating [Fry].” J.A. 119. The district
court excluded Boyle’s testimony under Rule 403 of
the Federal Rules of Evidence.
A four-day jury trial began in April 2018. At
the end of Fry’s case-in-chief, Rand moved for
judgment as a matter of law. The district court
reserved its ruling until after hearing Rand’s
evidence, at which point, the district court decided
that “the better course [was] to submit the case to
the jury,” despite the “very substantial issue as to
the adequacy of the evidence.” J.A. 718. The district
court pointed out that it could “actually decide those
issues, if necessary, after the verdict.” Id. The jury
rejected Fry’s other claims but returned a verdict for
Fry on her FMLA claim, awarding her $50,555.
Rand renewed its motion for judgment as a matter of
law and moved for a new trial.
Notwithstanding the verdict for Fry, the
district court granted Rand’s motion for judgment as
a matter of law. Applying the burden-shifting
framework of McDonnell Douglas Corp. v. Green, 411
U.S. 792 (1973), the district court found that “Fry
met her initial burden of making out a prima facie
case of retaliation.” J.A. 948. Next, the district court
found that Rand established a legitimate
nondiscriminatory reason for terminating Fry:
“problems with her job performance that predated
her FMLA leave.” J.A. 949. And finally, the district
court held that Fry “failed to introduce evidence from
which a jury could reasonably find that Rand’s
proffered reason was untrue or a pretext.” Id. The
district court also conditionally granted Rand’s
motion for a new trial because “the weight of the

9a
evidence [was] so heavily in favor of Rand.” J.A. 950.
Fry then timely filed this appeal, challenging the
district court’s orders granting motion for judgment
as a matter of law and excluding Boyle’s testimony. 2
We have jurisdiction under 28 U.S.C. § 1291.

II.

Discussion

A.

The
court
properly
granted
judgment as a matter of law on
Fry’s FMLA claim

We review de novo the district court’s grant of
a Rule 50(a)(1) motion for judgment as a matter of
law. Myrick v. Prime Insurance Syndicate, Inc., 395
F.3d 485, 489 (4th Cir. 2005). In conducting our
review, we apply the same standard used for
granting summary judgment. See Reeves v.
Sanderson Plumbing Products, Inc., 530 U.S. 133,
150 (2000). Under Rule 50, a district court may
grant the defendant’s motion only when the plaintiff
has been fully heard on a claim and the evidence
presented, combined with all permissible inferences,
does not provide a legally sufficient basis for a
reasonable jury to find in the plaintiff’s favor. Fed.
R. Civ. P. 50(a)(1). “If a verdict in favor of the
nonmoving party ‘would necessarily be based upon
speculation and conjecture,’ judgment as a matter of
law must be entered in the moving party’s favor.
However, ‘[i]f the evidence as a whole is susceptible
of more than one reasonable inference, a jury issue is
created and a motion for judgment as a matter of law
Fry does not challenge the district court’s conditional grant of
a new trial on the FMLA claim. So had Fry prevailed on appeal,
a new trial would still have been required.
2

10a
should be denied.’” Fontenot v. Taser International,
Inc., 736 F.3d 318, 332 (4th Cir. 2013) (quoting
Myrick, 395 F.3d at 489–90).
1.

The burden
FMLA claims

of

proof

for

The FMLA provides covered employees with
certain rights and protections, including “12
workweeks of leave during any 12-month period” for
family-related reasons or for an employee’s serious
health condition that renders her unable to do her
job. 29 U.S.C. § 2612(a)(1). After taking qualified
leave, employees are entitled to return to their preleave job or an equivalent position. Id.
§ 2614(a)(1)(A)–(B).
And an employer may not
eliminate any accrued employment benefit when an
employee takes qualified leave. Id. § 2614(a)(2).
Section 2615 prohibits two kinds of conduct:
(1) an employer cannot “interfere with, restrain, or
deny the exercise of or the attempt to exercise, any
right provided under this subchapter,” id.
§ 2615(a)(1); and (2) an employer cannot “discharge
or in any other manner discriminate against any
individual for opposing any practice made unlawful
by this subchapter,” id. § 2615(a)(2). The first
prohibition gives rise to “‘interference’ or
‘entitlement’ claims.” Waag v. Sotera Defense
Solutions, Inc., 857 F.3d 179, 186 (4th Cir. 2017)
(quoting Yashenko v. Harrah’s NC Casino Co., LLC,
446 F.3d 541, 546 (4th Cir. 2006)). The second
prohibits retaliation or discrimination for opposing
unlawful practices. See id.

11a
In both contexts, a plaintiff can either (1)
produce direct and indirect evidence of retaliatory
animus or (2) “demonstrate intent by circumstantial
evidence, which we evaluate under the framework
established for Title VII cases in McDonnell
Douglas.” Id. at 191; see also Laing v. Federal
Express Corp., 703 F.3d 713, 717 (4th Cir. 2013);
Yashenko  )G DW ï +HUH ERWK SDUWLHV
agree that the district court properly proceeded
under the latter approach.
The McDonnell Douglas framework requires
the plaintiff first to establish a prima facie case of
FMLA retaliation by proving three elements: “(1)
[the plaintiff] engaged in a protected activity; (2) her
employer took an adverse employment action against
her; and (3) there was a causal link between the two
events.” Hannah P. v. Coats, 916 F.3d 327, 347 (4th
Cir. 2019) (cleaned up). Then, the burden shifts to
the
defendant
to
produce
“a
legitimate,
nonretaliatory reason for taking the employment
action at issue.” Id. Lastly, the plaintiff is given a
chance to prove that the employer’s explanation was
false and a pretext for retaliation. Foster v.
University of Maryland-Eastern Shore, 787 F.3d 243,
252 (4th Cir. 2015); see also Diamond v. Colonial Life
& Accident Insurance Co., 416 F.3d 310, 318–20 (4th
Cir. 2005).
While it is clear that Fry relies on the
McDonnell Douglas framework, it is unclear as a
textual matter which subsection of § 2615—if
either—provides the basis for her claim that she was
retaliated against for taking leave. But since 2006,
our Court has held that claims of retaliation for

12a
taking leave arise under § 2615(a)(2) (opposing
unlawful practices). Yashenko, 446 F.3d at 546, 551;
see Sharif v. United Airlines, Inc., 841 F.3d 199, 203
(4th Cir. 2016).
We have read that subsection
broadly to protect not just employees who “oppose”
unlawful practices, § 2615(a)(2), but also to protect
“employees from discrimination or retaliation for
exercising their substantive rights under the FMLA.”
Yashenko, 446 F.3d at 546 (emphasis added); see
also Lovland v. Employers Mut. Cas. Co., 674 F.3d
806, 810–12 (8th Cir. 2012). Not everyone agrees
with our reading: Several of our sister circuits find
these claims fall under § 2615(a)(1). See, e.g., Woods
v. START Treatment & Recovery Ctrs, Inc., 864
F.3d 158, 166–67 (2d Cir. 2017).
But we are
generally bound by our prior panel decision in
Yashenko absent contrary law from an en banc or
Supreme Court decision. See Taylor v. Grubbs, 930
F.3d 611, 619 (4th Cir. 2019).
Yet the Department of Labor issued
regulations offering a different interpretation of
§ 2615(a) two years after our holding in Yashenko
(but before cases following Yashenko, see, e.g., Sharif,
841 F.3d at 203). That regulation suggests that
claims for retaliation for taking leave arise under
§ 2615(a)(1), not § 2615(a)(2). See 73 Fed. Reg. 67986
(Nov. 17, 2008) (“[T]he Act’s prohibition on
interference in 29 U.S.C. 2615(a)(1) includes claims
that an employer has discriminated or retaliated
against an employee for having exercised his or her
FMLA rights.”); see also 29 C.F.R. § 825.220(c)
(2013). And, under current Supreme Court
precedent, a prior panel’s interpretation of an
ambiguous statute is not binding when the panel

13a
decision
is
overcome
by
an
intervening,
authoritative, and reasonable agency interpretation.
See National Cable & Telecommunications Ass’n v.
Brand X Internet Services, 545 U.S. 967, 982–83
(2005) (“Only a judicial precedent holding that the
statute unambiguously forecloses the agency’s
interpretation, and therefore contains no gap for the
agency to fill, displaces a conflicting agency
construction.”); see also Palmetto Prince George
Operating, LLC v. National Labor Relations Bd., 841
F.3d 211, 216–17 (4th Cir. 2016). So this more recent
regulation might require us, despite Yashenko, to
find that retaliation-for-exercise claims fall under
subsection (a)(1). And, Fry argues, the regulation
dictates that subsection (a)(1) claims require only
negative-factor causation. See 29 C.F.R. § 825.220(c)
(“[E]mployers cannot use the taking of FMLA leave
as a negative factor in employment actions, such as
hiring, promotions or disciplinary actions”).3
We need not resolve this issue here because
Fry relies on the McDonnell Douglas framework to
establish her claim. 4 Under that framework, she
bears the “ultimate burden of persuading the court
that she has been the victim of intentional
retaliation.” Foster, 787 F.3d at 252 (citations and
internal marks omitted). To “carry this burden,” Fry
must “establish both that the employer’s reason was
Our cases suggest that § 2615(a)(1)’s prohibition on
interference is “prescriptive,” meaning the employer’s intent is
irrelevant. See, e.g., Sharif, 841 F.3d at 203. But Fry does not
rely on those cases to argue that Rand’s intent is irrelevant to
her claim.
4
Unlike the plaintiff in Babb v. Wilkie, 140 S. Ct. 1168, 1172
(2020), Fry does not contend that the district court erred in
using the McDonnell Douglas framework.
3

14a
false and that [retaliation] was the real reason for
the challenged conduct.” Id. (citations and internal
marks omitted). And establishing that retaliation
was the “real reason” is “functionally equivalent” to
showing that Fry would have not been terminated
“but for her employer’s retaliatory animus.” Id. 5 So,
as we have held, “the McDonnell Douglas framework
has long demanded proof at the pretext stage that
retaliation was a but-for cause.” Id.; see also
Diamond, 416 F.3d at 318– 20 (finding that a Title
VII plaintiff who relies on McDonnell Douglas must
put forward evidence of pretext to survive summary
judgment).
Because Fry relies on the McDonnell Douglas
framework and its pretext stage requires but-for
causation, it does not matter which subsection of
§ 2615(a) the claim arises under. A plaintiff relying
on the McDonnell Douglas framework must “put on
sufficient evidence to allow a jury to find both
retaliatory animus and pretext” to avoid judgment
as a matter of law in an FMLA case. Dotson v. Pfizer,
Inc., 558 F.3d 284, 296 (4th Cir. 2009). And this is
where Fry’s case fell short.

Recently in Hannah P., 916 F.3d at 348, we affirmed a grant of
summary judgment on an FMLA retaliation claim. Though we
cited the “negative factor” regulation, 29 C.F.R.§ 825.220(c), as
“relevant” to a subsection (a)(2) claim, we then held that the
plaintiff failed to prove the “defendant’s proffered reason is
pretextual” by rebutting the defendant’s “legitimate,
nonretaliatory reason” under McDonnell Douglas. Id. at 347. So
as our precedent stands, any plaintiff relying on burden
shifting to establish an FMLA retaliation claim must establish
pretext.
5

15a
2.

Fry failed to establish that
Rand’s reason for firing her
was false and that retaliation
was the real reason for her
termination

The district court found that Fry failed to
introduce sufficient evidence from which a
reasonable jury could find Rand’s proffered reason
was false and a pretext for retaliation. We agree. See
Reeves v. Sanderson Plumbing Products, Inc., 530
U.S. 133, 148–49 (2000) (“Whether judgment as a
matter of law is appropriate in any particular case
will depend on a number of factors,” including “the
probative value of the proof that the employer’s
explanation is false.”). 6
Rand presented a “lawful explanation” for
firing Fry: performance problems. Adams v. Anne
Arundel County Public Schools, 789 F.3d 422, 429
(4th Cir. 2015). Extensive evidence showed that Fry
failed to meet expectations—both before and after
her FMLA leave. See Sharif, 841 F.3d at 204. For
example, in March 2016, Rabbitt emailed Fry, telling
her that she was “very concerned . . . [a]bout [Fry’s]
performance,” and that Fry’s performance issues
“ha[d] been building up ever since the [earlier] mixup with a potential client,” J.A. 1255, when Rabbitt
and her colleagues arrived for a meeting and
discovered that the meeting “didn’t exist” because
In reviewing a jury’s verdict, whether the plaintiff properly
made a prima facie showing is “no longer relevant.” U.S. Postal
Serv. Bd. of Governors v. Aikens, 460 U.S. 711, 715 (1983). But
evidence supporting the plaintiff’s prima facie case remains
relevant in evaluating whether the proffered rationale was false
and a pretext for retaliation. Reeves, 530 U.S. at 146.
6

16a
Fry had not confirmed it, J.A. 603. At trial, Fry
testified that she remembered how Rabbitt “was
quite upset. Very close to furious.” J.A. 482.
Rabbitt’s email listed her concerns:
Yesterday, I was hugely embarrassed
that you hadn’t done your job. I have to
go to a dinner tonight NOT HAVING
done my job . . . . because you sat on
something for almost a month.
I don’t have a call-in number for an
important call today.
I have to edit too many emails . . . .
correct too many mistakes.
You have done many good things but it
seems it is harder and harder for you to
keep my very complicated schedule. I
end up doing more and more myself. . . .
You[r] attitude has been much better. It
really has, but now you move slower, do
less and make too many mistakes.
You and
carefully.

I

need

to

monitor

this

J.A. 1255.
Between May 2016 and November 3, 2016,
Rand documented more performance deficiencies.
Fry failed to inform Rabbitt that a delivery for
Rabbitt was not going to be made that day, failed to

17a
check Rabbitt’s emails more carefully, failed to set
up an online portal for Rabbitt that she had
requested, and failed to give Rabbitt’s driver
Rabbitt’s schedule. As for the latter, Rabbitt emailed
both her driver and Fry in September 2016,
informing them, “If you can’t work out this simple
activity, both of your jobs may be in jeopardy.” J.A.
1263 (emphasis added).
And on November 3, 2016, Fry made a
mistake that almost caused Rabbitt to miss an
important meeting. Rabbitt complained about the
mistake to Haglund: “I think Arlene blew it. If [s]he
did, I need to replace her. She’s making too many
mistakes.” J.A. 1264. And Rabbitt confirmed that
Fry indeed “had blown it.” J.A. 617. Less than two
weeks later, there was another scheduling mix-up on
November 15, 2016. Rabbitt came into D.C. for an
early meeting and learned when she got there that
the meeting had been changed to a conference call,
which Fry had failed to tell Rabbitt. That incident
“[c]ompletely” confirmed Rabbitt’s decision to end
Fry’s employment. J.A. 623.
These confrontations between Fry and Rabbitt
about Fry’s performance continued even after Fry
returned from FMLA leave. For instance, on
December 23, 2016, Rabbitt called Fry about an
issue with a food delivery, blaming Fry for the
problem. According to Fry, Rabbitt told her, “You
cannot do anything right. You do this just to make
me angry. You do it on purpose.” J.A. 417.
Fry’s evidence—taken in the light most
favorable to her—was not enough to permit a

18a
reasonable jury to conclude that Rand’s proffered
rationale was false and merely a pretext for FMLA
retaliation. Fry suggests that Rand’s reason was
false because Rand did not terminate her
employment in November 2016, despite Rabbitt’s
concerns with Fry’s many mistakes. In other words,
if Rand was really motivated by her performance,
and not the FMLA leave, then Rand would have
fired her sooner. 7
But an employer “proceeding along lines
previously contemplated, though not yet definitively
determined, is no evidence whatever of causality.”
Clark County School District v. Breeden, 532 U.S.
268, 272 (2001). The evidence showed that Rabbitt at
least “contemplated” firing Fry before she took leave.
Id. So, even if the decision was only “definitively
determined” after the leave, that timing “is no
evidence whatever” that the leave was the real
reason for the firing. Id.; see also J.A. 212
(explaining that, “typically, Rand’s practice is not to
terminate employees during holidays or year-end”).
Though Rand had contemplated firing Fry for
her performance problems, Rand readily approved
Fry’s request to take FMLA leave with no indication
of hostility. See Sharif, 841 F.3d at 205. Fry testified
that, when she told Rabbitt about her multiple
sclerosis, Rabbitt was “‘sorry to hear this’” and said,
“‘I’m going to leave you with [Bazyluk] who is going
As Rand did for every employee, Rand did give Fry a bonus in
November 2016. And undisputed evidence at trial suggested
that Fry was unhappy with the $1,500 she received, leading
Rabbitt to explain that just because Fry had been here “another
year” does not make her “more valuable.” J.A. 342, 1125.

7

19a
to explain your benefits to you.’” J.A. 455. The next
day, when Fry told Haglund that she needed to take
leave, Haglund “[c]ouldn’t have been more gracious
or concerned,” telling her to take “[w]hatever [she]
need[ed].” J.A. 458. Fry also testified that, when she
informed Bazyluk that it would be difficult to get her
doctor to complete the FMLA paperwork because it
was almost Thanksgiving, “[Bazyluk] was very nice
and she said, ‘That’s not a problem. That’s fine.’” J.A.
459.
Fry points to comments made by Rabbitt after
Fry returned from leave. At one point, Rabbitt
accused her of returning from a “two week cruise.”
J.A. 412, 418. And Rabbitt expressed frustration
with the effect of Fry’s illness. November was the
beginning of “the busiest time of the year” for
Rabbitt. J.A. 212. And Fry’s leave, combined with
the uncertainty, added to her stress. When Fry
returned to Rand on December 12, Rabbitt met with
her to discuss how they would work together, saying,
“I want to know what this . . . thing means. I want
to know what it means. I want to know how it is
going to affect my life.” J.A. 404. But these
comments are not enough to show that Fry’s welldocumented performance issues were pretext for
Rand’s retaliation. See Reeves, 530 U.S. at 148–49.
Rabbitt often expressed her dissatisfaction with Fry’s
performance over several months before Fry took
FMLA leave. If anything, Fry’s leave “just delayed
the inevitable,” J.A. 213—that Rabbitt would
terminate Fry’s employment because of her
performance issues.

20a
Fry disagrees with Rand’s assessment of Fry’s
performance. But that disagreement does not provide
a legally sufficient basis for a reasonable jury to
conclude Rand’s problem with Fry’s performance was
pretextual. It is the “perception of the decision
maker which is relevant, not the self-assessment of
the plaintiff.” DeJarnette v. Corning Inc., 133 F.3d
293, 299 (4th Cir. 1998) (cleaned up). And here the
decision maker was Rabbitt, Rand’s Chief Executive
Officer. J.A. 335. See also Laing, 703 F.3d at 722
(“[A]ll [the plaintiff] has proven is the unexceptional
fact that she disagrees with the outcome . . . But
such disagreement does not prove that [the
defendant’s] decision to fire her . . . was ‘dishonest or
not the real reason for her termination.’”) (quoting
Hawkins v. PepsiCo, Inc., 203 F.3d 274, 280 (4th Cir.
2000)). The FMLA does not prevent “an employer
from terminating an employee for poor performance,
misconduct, or insubordinate behavior.” Vannoy v.
Federal Reserve Bank of Richmond, 827 F.3d 296,
304–05 (4th Cir. 2016). And it is not the courts’ place
to determine whether Rand’s assessment of Fry’s
performance issues was “‘wise, fair, or even correct,
so long as it truly was the reason for [her]
termination.’” Laing, 703 F.3d at 722 (citing
Hawkins, 203 F.3d at 279). The FMLA does not
require “an employer to retain an employee on
FMLA leave when the employer would not have
retained the employee had the employee not been
on FMLA leave.” Throneberry v. McGehee Desha
County Hospital, 403 F.3d 972, 977 (8th Cir. 2005).
We therefore conclude that Fry did not
provide sufficient evidence to show Rand’s proffered
nonretaliatory reason for terminating Fry’s

21a
employment—poor performance— was false and a
pretext for retaliation. So we affirm the district
court’s judgment as a matter of law on Fry’s FMLA
retaliation claim.
3.

The court did not abuse its
discretion by excluding a
former employee’s testimony
under Rule 403

Fry also argues that the district court erred in
barring testimony by Susan Boyle, a former Rand
employee. Fry offered Boyle’s testimony to show
Rabbitt’s discriminatory intent. Boyle would have
testified that, more than a decade ago, she was fired
after taking non-FMLA leave for six weeks after a
neck surgery.
The district court excluded Boyle’s testimony
under Federal Rule of Evidence 403, which permits a
district court to exclude evidence when “its probative
value is substantially outweighed by a danger of . . .
unfair prejudice, confusing the issues, [or]
misleading the jury . . .” Fed. R. Evid. 403. We
review this ruling for an abuse of discretion. Roe v.
Howard, 917 F.3d 229, 239 (4th Cir. 2019); Belk, Inc.
v. Meyer Corp., U.S., 679 F.3d 146, 161 (4th Cir.
2012).
The district court did not abuse its discretion
by excluding this evidence. As the Supreme Court
explained in Sprint/United Management Co. v.
Mendelsohn, 552 U.S. 379 (2008), whether testimony
of separate instances of discrimination is relevant
“depends on many factors, including how closely

22a
related the evidence is to the plaintiff’s
circumstances and theory of the case.” Id. at 388; see
also Griffin v. Finkbeiner, 689 F.3d 584, 599 (6th Cir.
2012). Here, the district court found that Boyle’s
alleged discrimination was not “‘close in time’” to
Fry’s and that the circumstances were “markedly
different.” J.A. 120. Boyle suffered a neck injury that
required her to take six weeks off to recover in 2008.
And Boyle did not take statutory FMLA leave; she
instead relied on Rand’s leave policies. Fry, on the
other hand, had multiple sclerosis and took
qualifying FMLA leave. So the district court found
that the evidence, ultimately, had little probative
value.
On the other hand, the district court found
that there was uncertainty about whether Boyle’s
termination was unlawful. So, if Boyle testified at
trial, there was a risk of “confus[ing] the issues for
the jury and unnecessarily lengthen[ing] this case by
creating a ‘trial within a trial.’” J.A. 121. The district
court also explained that “any probative value that
Boyle’s termination in 2008 has with respect to
Rand’s intent as to Fry in 2016 is substantially
outweighed by the unfair prejudice that would
attend that evidence.” Id. Boyle’s testimony,
according to the district court, tends to showcase a
prior bad act in an impermissible way: the jury
would likely understand Boyle’s experience “as
evidence of Rabbitt’s general disposition against
those with disabilities or those who take leave.” Id.
And the court determined this kind of inference
risked the type of prejudice envisioned by Federal
Rule of Evidence 404(a). Id.; see also Fed. R. Evid.
404(a) (“Evidence of a person’s character or character

23a
trait is not admissible to prove that on a particular
occasion the person acted in accordance with the
character or trait.”).
We find that the district court properly
conducted its balancing under Rule 403 in a nuanced
and particularized manner. See J.A. 118–21 (four
pages addressing Boyle’s testimony). Given the
district court’s “wide discretion” under Rule 403,
United States v. Abel, 469 U.S. 45, 54 (1984), we find
that the district court did not abuse its discretion in
excluding Boyle’s testimony.
***
A jury’s verdict is entitled to great respect.
But the district court must still perform its duty to
grant judgment as a matter of law when it “finds
that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on
that issue.” Fed. R. Civ. P. 50(a)(1). Here, the district
court properly held that Fry failed to provide a
sufficient evidentiary basis for a reasonable jury to
find that Rand’s reliance on Fry’s performance
problems was merely pretext. So the district court’s
judgment is
AFFIRMED.

24a
DIANA GRIBBON MOTZ, Circuit Judge, dissenting:
The evidence introduced at trial in this case
did not compel the jury’s verdict that Rand
Construction
Corporation
(“Rand”
or
“the
Corporation”) terminated Arlene Fry for exercising
her rights under the Family and Medical Leave Act
(FMLA). But that evidence did provide a sufficient
basis for the verdict. Accordingly, I dissent from the
majority’s contrary holding.
Central to my disagreement with the majority
is the fact that a trial court’s role as finder of fact
differs markedly from its role in deciding a motion
for judgment as a matter of law, which may nullify a
jury verdict. As factfinder, the trial court determines
whether the plaintiff has prevailed on her claim,
employing, in the usual civil case like this one, a
preponderance of the evidence standard. See
Verisign, Inc. v. XYZ.com LLC, 891 F.3d 481, 485 (4th
Cir. 2018); Hannah P. v. Coats, 916 F.3d 327, 342
(4th Cir. 2019). But a court may grant judgment as a
matter of law, upending a jury verdict, “only if,
viewing the evidence in a light most favorable to the
non-moving party and drawing every legitimate
inference in that party’s favor, . . . the only conclusion
a reasonable jury could have reached is one in favor
of the moving party.” Saunders v. Branch Banking &
Tr. Co. of Va., 526 F.3d 142, 147 (4th Cir. 2008)
(emphasis added).
“Credibility determinations, the weighing of
the evidence, and the drawing of legitimate
inferences from the facts are jury functions, not those
of a judge . . . .” Anderson v. Liberty Lobby, 477 U.S.

25a
242, 255 (1986); accord Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 150 (2000).
Consequently, we must “disregard all evidence
favorable to the moving party that the jury is not
required to believe.” Reeves, 530 U.S. at 151. A
court must “give credence to the evidence favoring
the nonmovant as well as that evidence supporting
the moving party that is uncontradicted and
unimpeached, at least to the extent that that
evidence comes from disinterested witnesses.” Id.
(internal quotation marks omitted). “If the evidence
as a whole is susceptible of more than one reasonable
inference, a jury issue is created and a motion for
judgment as a matter of law should be denied.”
Myrick v. Prime Ins. Syndicate, Inc., 395 F.3d 485,
489–90 (4th Cir. 2005).
In this case, “the evidence as a whole is
susceptible of more than one reasonable inference.”
Id. Rand’s theory of the case was that the decision to
terminate Fry’s employment was made prior to her
exercising her FMLA rights. The Corporation relies
on a November 3, 2016, email authored by its Chief
Executive Officer — for whom Fry worked as an
executive assistant — stating that she would need to
replace Fry if Fry “blew it” on a particular
assignment. The jury need not have concluded from
this email that the CEO had made a decision to
terminate Fry’s employment at that time. In fact,
shortly after the email was sent, the Chief Operating
Officer reassured Fry: “[The CEO] is just angry.
She’s just upset.”
The Corporation also relies on the Human
Resources Director’s testimony that after meeting

26a
with the CEO on November 4, 2016, about the list of
Fry’s attributes, her understanding was that Fry’s
employment would be terminated. The jury did not
have to draw this inference. The list contains no
reference to termination, nor did the Rand HR
Director testify that she discussed termination with
the CEO at that point. Similarly, although the Rand
CEO testified that the November 15 incident
“confirmed” her decision to fire Fry, the jury was not
required to credit the CEO’s self-serving testimony.
Contrary to the majority’s depiction, the trial
transcript does not reflect that the CEO herself
“reconfirmed” Fry’s termination during her
conversation with the HR Director. And the COO’s
January 6 letter is consistent with Fry’s account that
prior to her FMLA complaints, the Corporation had
only been proposing a transition plan that, if
accepted, would involve her leaving the company the
following summer.
Moreover, even if the Corporation could have
terminated Fry due to poor performance, this does
not mean that it would have done so absent Fry’s
protected activity. See Guessous v. Fairview Prop.
Invs., LLC, 828 F.3d 208, 218 (4th Cir. 2016)
(“[B]ecause Fairview has shown it could operate
without Guessous does not mean that it would have
done so absent the protected activity. Guessous’
burden is only to show that the protected activity
was a but-for cause of her termination, not that it
was the sole cause.”). Fry did not have to prove that
her performance was satisfactory to her employer.
She only needed to prove that, notwithstanding her
performance issues, her termination was “more likely
the result of retaliation.” See Sharif v. United

27a
Airlines, Inc., 841 F.3d 199, 203 (4th Cir. 2016)
(emphasis added).
Based on the evidence introduced at trial, a
reasonable jury could find that Fry’s termination
was “more likely the result of retaliation.” Id. Fry
offered evidence that her FMLA leave affected the
CEO’s assessment of her performance. Shortly before
Fry took FMLA leave, the Rand CEO awarded her a
$1,500 year-end bonus. The CEO acknowledged that
Fry “showed up every day for work” from 2009
through November 2016 (the month that Fry took
FMLA leave); only thereafter, according to the
CEO, did Fry’s attendance become “unpredictable.”
When Fry explained that she had been on medical
leave, the CEO replied: “You were on a cruise. You
were on a God damn cruise.” Shortly thereafter, the
Rand COO and HR Director proposed a transition
agreement to Fry that, if accepted, would result in
Fry leaving the company the following summer.
Less than a month later, Fry complained to
Rand that her FMLA rights were being violated. She
sent a second complaint on February 2, 2017; the
company terminated her the following day. The
Rand COO agreed that Fry’s February 2 complaint
was “the straw that broke the camel’s back.”
According to the COO: “We tried to work with her,
trying to figure out what was really going on. And
then at this point she was calling us liars.” Of
course, the COO also testified that the decision to
terminate Fry’s employment ultimately rested with
the CEO. But the COO’s testimony suggests that
Rand management viewed the February 2 complaint
as crucial to the decision to fire Fry. The close

28a
temporal proximity between the complaint and Fry’s
termination the following day buttresses this
inference. Viewing all of the evidence in the light
most favorable to Fry and drawing every legitimate
inference in her favor, a reasonable jury could find
that Fry was terminated for exercising her FMLA
rights.
To be sure, the evidence introduced at trial
would have permitted the jury to believe that in
terminating Fry, the Corporation was “proceeding
along lines previously contemplated.” Clark Cty. Sch.
Dist. v. Breeden, 532 U.S. 268, 272 (2001). But
judgment as a matter of law is not warranted unless
“the only conclusion a reasonable jury could have
reached is one in favor of the moving party.”
Saunders, 526 F.3d at 147 (emphasis added). In this
case, the jury was entitled to believe that Fry’s
protected activity was the straw that broke the
camel’s back — the extra push that moved the
Corporation from dissatisfaction with Fry to a
decision to terminate.
I respectfully dissent.

29a
[ENTERED: July 1, 2020]
FILED: July 1, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2083
(1:17-cv-00878-AJT-TCB)
ARLENE FRY
Plaintiff - Appellant
v.
RAND CONSTRUCTION CORPORATION
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

30a
[ENTERED: August 23, 2018]
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ARLENE FRY,

)
)
Plaintiff,
)
)
v.
)
)
RAND CONSTRUCTION )
CORP.,
)
Defendant. )
)

Civil Action
No.1: l 7-cv-0878
(AJT/TCB)

JUDGMENT
Pursuant to the order of this Court entered on
8/22/2018 and in accordance with Federal Rules of
Civil Procedure 58, JUDGMENT is hereby entered
in favor of Rand Construction Corporation and
against Arlene Fry.
FERNANDO GALINDO,
CLERK OF COURT
By:

Dated: 8/23/2018
Alexandria, Virginia

/s/
A.Otto
Deputy Clerk

31a
[ENTERED: August 22, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ARLENE FRY,

)
)
Plaintiff,
)
)
v.
)
)
RAND CONSTRUCTION )
CORP.,
)
Defendant. )
)

Civil Action
No.1: l 7-cv-0878
(AJT/TCB)

MEMORANDUM OPINION and ORDER
In this action, Plaintiff Arlene Fry alleged
that her former employer, Defendant Rand
Construction
Corporation,
terminated
her
employment on February 3, 2017 in violation of the
Family Medical Leave Act (Count I) and the
Americans with Disabilities Act (Counts II and III).
See First Amended Complaint [Doc. No. 27]
(“FAC”). A jury trial began on April 23, 2018, and
on April 27, 2018, the jury returned a verdict in
Plaintiff’s favor as to Count I, and in Defendant’s
favor on Counts II and III as well as Defendant’s
after-acquired evidence defense. [Doc. No. 112]. The
jury awarded damages on Count I in the amount of
$50,555, an amount which, as stated in the jury’s
verdict, was not reduced based on its finding in
favor of Rand on its after-acquired evidence
defense. Pending are Plaintiff’s Rule 50 Motion for

32a
Judgment as a Matter of Law [Doc. No. 130] and
Defendant’s Motion for Judgment as a Matter of
Law or for a New Trial [Doc. No. 133]. On June 25,
2018, the Court held a hearing on the Motions,
following which it took them under advisement.
In her Motion, Plaintiff Fry seeks judgment
as a matter of law on Defendant’s after- acquired
evidence defense. Defendant’s Motion seeks
judgment in its favor on Count I for FMLA
retaliation, the sole count on which the jury found
for the Plaintiff, on the ground that the evidence
adduced at trial was insufficient as a matter of law
to establish that Rand terminated her in retaliation
for her FMLA leave-taking and her complaints of
retaliation based on her FMLA leave taking.
For the reasons stated in more detail below,
the evidence at trial regarding the Defendant’s
after-acquired evidence defense—that it would have
terminated Fry had it known she was retaining
emails in violation of company policy—was
sufficient to support the jury’s finding in Rand’s
favor. Therefore, Plaintiff’s Motion will be
DENIED. As to Defendant’s Motion, the evidence
was insufficient as a matter of law to establish that
Plaintiff’s termination on February 3, 2017 was
caused by either her taking FMLA leave from
November 28 to December 12, 2016 or her
complaints of retaliation in January and February
2017. Accordingly, Defendant’s Motion will be
GRANTED.

33a
I. BACKGROUND 1
From June 30, 2008 to February 3, 2017,
Plaintiff Fry was the administrative assistant to
Linda Rabbitt, the founder and Chief Executive
Officer
of
Defendant
Rand
Construction
Corporation. In the early morning on November 3,
2016, Rabbitt became upset with what she regarded
as a mistake in Fry’s performance that caused
Rabbitt to nearly miss an important meeting. That
same day, in an email to Fry, Rabbitt complained of
the mistake and told her “[t]his is a VERY
important meeting..and [sic] if you screwed this up
I will be really really angry.” Def.s’ Ex. 12. 2 Fry
testified that after the incident, Rabbitt was
“furious . . . but not talking to me.” Trial Tr. 356:17.
Shortly after her email to Fry, Rabbitt emailed
Kurt Haglund, Rand’s Chief Operating Officer,
about the incident, saying “I think Arlene blew it. If
[s]he did, I need to replace her. She’s making too
many mistakes.” Def.’s Ex. 11. Fry, who had access
to Rabbitt’s email for her job, saw the email to
Haglund (on which Fry was not copied) and shortly
thereafter asked Haglund during a chance
encounter at the office whether he wanted to
replace her, because she was concerned that
Rabbitt wanted to replace her and believed that
Rabbitt was giving Haglund permission to
terminate her. Id., 356:4–5; 422:4–9. Haglund
1 For the purposes of Plaintiff’s Motion, the Court has
considered the evidence in the light most favorable to the
Defendant; and for the purposes of Defendant’s Motion as to
Count I, in a light most favorable to the Plaintiff.
2 While the parties have attached and renumbered selected
trial exhibits to their Motions, citations to exhibits in this
opinion refer to the trial exhibit numbers.

34a
responded “I do not want to replace you. Linda is
just angry.” Id. at 356:6–7. Following that exchange
with Haglund, Rabbitt continued to be “furious”
with Fry, but still was not speaking with her. Id. at
356:17–18. Later that same day, Fry solicited the
help of Violetta Bazyluk, Rand’s Human Resources
Director, in arranging a meeting with Rabbitt and
to accompany her in that meeting with Rabbitt “to
convince her it’s important enough for us to have
this conversation [about what happened].” Id. at
357:17–20. Following her meeting with Bazyluk,
Fry observed Rabbitt, Haglund, and Bazyluk in a
conference room together. After Haglund and
Bazyluck left the conference room, Rabbitt
approached Fry, saying “‘[w]e will talk about this,
but not now because I am too angry.’” Id. at 358:12.
Fry testified Rabbitt looked as if “she’s [Rabbitt’s]
going to have a stroke. She’s purple, purple with
rage. She is so angry. Her voice is shaking.” Id. at
358:9–11. The next day, November 4, 2016, Rabbitt
gave Bazyluk a list of Fry’s positive and negative
attributes as an employee, including many more
negatives than positives. Def.’s Ex. 13.
Haglund and Bazyluk testified that because of the
November 3 incident, they understood that Rabbitt
had made the decision to terminate Fry. See Trial
Tr. 143:25–144:3 (Bazyluk testifying regarding the
note she received from Rabbitt on November 4:
“[Rabbitt] wanted to get rid of [Fry] and be done
with this. She was not performing to her standards.
So I understood that inevitably this employment
will be terminated.”); 246:16–18 (Haglund: “it
became increasingly obvious to me in November
that it was only a question of time [before Rabbitt
replaced Fry].”); see also Id. at 538:8–10 (Rabbitt

35a
testifying regarding the list she left for Bazyluk on
November 4: “I was sort of in my head just proofing
out that I just needed to do this. I just needed to
replace Arlene Fry as my executive assistant.”).
Haglund and Rabbitt also testified that the
implementation of that decision had been put off
until after the upcoming holidays. See Id. at
248:17–20 (Haglund testifying that Rand generally
does not terminate employees at the end of the
calendar year, because “it’s an incredibly busy time
of year [and] we generally try to be kind to our
employees and we try not to terminate people at
the end of the year ”); Id. at 545:14–25( Rabbitt
testifying that the end of the year is “an incredibly,
crushing busy time for the senior management at
Rand,” so she “would never have had enough time
to hire somebody,” and that “we as a company don’t
actually terminate people around the holidays.”).
Rabbitt’s
unhappiness
with
Fry’s
performance on November 3, 2016 had been
preceded by a protracted series of performance
issues between Fry and Rabbitt. In March 2016,
after Fry engaged in what Rabbitt considered
inadequate job performance, Rabbitt emailed Fry
informing her that she was “very concerned . . .
[a]bout your performance,” and that Fry’s
performance issues “ha[d] been building up ever
since the [earlier] mix-up with a potential client,
Long + Foster.” See Def.’s Ex. 4. Fry described
Rabbitt at this time as “quite upset[ and v]ery close
to furious.” Trial Tr. 395:19. Fry testified that when
she met with Rabbitt to discuss the incident,
Rabbitt was very upset and “stressed out,”
pounding her fists and screaming that “nobody
helps me.” Id at 396:14.

36a
In the months between the March 2016 and
November 3 2016 incidents, Rabbitt confronted Fry
with several more performance issues. See Def.’s
Exs. 6, 7, 9. After an incident in August 2016,
Rabbitt sent Fry and email with the subject “I am
SO angry,” to which Fry responded with a detailed
explanation of her side of the story. Def.’s Ex. 8. In
another email in September 2016, Rabbitt
expressed her exasperation with Fry regarding a
dispute between Fry and Rabbitt’s driver. Def.’s Ex.
10. Following the November 3 incident, Rabbitt
confronted Fry with another performance issue on
November 15, 2016, after which Fry testified
Rabbitt was “chronically unhappy” with her. Trial
Tr. 430:2–16.
Unbeknownst to Rand or Rabbitt, Fry had
been diagnosed with multiple sclerosis in 2010. On
November 17, 2016, after experiencing certain
symptoms, Fry went to see her neurologist, Dr.
Fishman, who concluded that Fry was experiencing
a “flare-up” of her MS symptoms and recommended
approximately two weeks of leave from work to
reduce stress. See Trial Tr. 570:5–571:22. As
reflected in the medical records for that visit, and
as testified to by Dr. Fishman, Fry had asked
whether she qualified for a disability and Dr.
Fishman concluded that she did not, as she was
demonstrating “no objective limitation” during her
exam that would qualify her for disability. Id. at
570:10–571:9; Def.’s Ex. 41.
On November 21, 2017, in a meeting with
Rabbitt and Bazyluk, Fry disclosed for the first
time that she had MS. In her testimony, Fry
describes Rabbitt’s reaction to her disclosure and

37a
request as “pleasant,” and noted that Rabbitt said
she was “sorry to hear this” and that she had a
colleague who also has multiple sclerosis. Trial Tr.
368:1–5, 370:21. Fry testified that after Fry left the
room to take a call, Bazyluk asked for her age
before mapping out, as Bazyluk described, “what’s
going to happen” with Fry’s leave options, including
FMLA, “from start to finish.” Id. at 368:6–20.
Bazaluck testified without any challenge by Fry
that she told Fry to take as much time as she
needed and provided her with various leave
options. Id. at 146:9–147:2. Bazyluk also testified
that as of November 21, “everything that Arlene
said to me at that time, it implicated [sic] that she
would be gone until the end of the year.” Id. at
147:24–148:1. Fry testified that after she informed
Haglund personally about her condition and her
leave, he “[c]ouldn’t have been more gracious and
concerned.” Id. at 371:11–16.
Fry decided to take medical leave under the
FMLA from November 28, 2016 to December 12,
2016. She delayed taking that leave until
November 28, 2016 in order to satisfy Rabbitt’s
request that before taking leave she “bring
everything up to speed.” Id. at 370:21–23. Fry
returned to work on December 12, 2016. According
to Fry, after she returned from FMLA leave, she
was immediately met with a series of harsh
comments from Rabbitt, many laced with
profanities. 5 For example, in a meeting with Fry,
Haglund, and Bazyluk, Rabbitt complained that
Rabbitt testified that while she has used profanity in the
office, she never directed any profanity directly to Fry. See
Trial Tr. 477:17 (Rabbitt testifying that “I cursed around her.
I never cursed at her.”).

5

38a
“[y]ou [Fry] left me during the busiest time of the
year. I have been sick. I have been stressed . . . .
Look at my eye [referring to what appeared to be a
stye]. I don’t take time off. I don’t go away. I stay
here and I work.” Id. at 317:22–25. Fry further
testified that Rabbitt pounded on the table and
called her a “God damn liar,” saying that “[y]ou told
me you’re not coming back.” Id. at 317:11, 14.
Finally, according to Fry, Rabbitt said “I want to
know what this God damn thing means
I want
to know how it is going to affect my life.” Id. at 23–
23. According to Fry, sometime latter following her
return, Rabbitt accused Fry of being “too God damn
rested[,]” saying “ I know you were on a cruise”
during her FMLA leave. Id. at 325:6–8.
In the following weeks, Fry testified to other
confrontations between her and Rabbitt over her
performance. 6 After an issue pertaining food to be
delivered to Rabbitt’s home for a Christmas dinner,
Fry reached out to Bazyluk, who indicated,
according to Fry’s testimony, that “[w]e know this
6 For example, in one incident, Rabbitt was in a meeting when
Fry answered a call for her from a board member. When Fry
tried to work her way through a crowded conference room to
hand Rabbitt a note about the call, Rabbitt said “[t]his is
ridiculous. This is so ridiculous. Just tell me who is on the
damn phone,” which Fry found embarrassing. Id. at 310:24–
321:1. In a similar incident, after Fry had made some edits to
a holiday party speech Rabbitt would give, Rabbitt threw the
papers at her and said “I don’t know why I pay you a God
damn cent. You— you are a f[-]ing waste of oxygen.” Id. at
323:22–23. On December 22,2016, when Fry showed Rabbitt
the catering contract for food to be delivered to Rabbitt’s
house for a Christmas dinner, which Rabbitt had already
approved and signed, Rabbitt said “[y]ou’re f[-]ing up on
purpose . . . . My meal is supposed to be delivered tomorrow
[the 23rd] not Christmas Eve.” Id. at 326:24–25; 327:5–6.

39a
relationship is toxic[,]” and that “[w]e are aware of
what’s going on.” Id. at 328:12–13, 15–16. Bazyluk
then asked Fry if she would be willing to work for
Haglund instead of Rabbitt; Fry agreed, but
expressed concern over “what he’s [Haglund] heard
about my work product” and whether Rabbitt
would approve of the move. Id. at 329:2–5. The next
day, December 23, over another issue related to the
Christmas food delivery, Rabbitt called Fry, blamed
her for the problem, saying “God damn it, Arlene
[, y]ou cannot do anything right. You do this just to
make me angry. You do it on purpose.” Id. at 330:6–
9. After Fry was able to fix the mistake, Rabbitt
again accused her of being on a two week cruise
during her FMLA leave.
The next week, on December 27, Fry met
with Bazyluk and Haglund to discuss the
possibility of her working for Haglund. According to
Fry, Haglund was open to the idea, saying that he
had always been satisfied with Fry’s work and
indicating that Fry should not worry about
Rabbitt’s reaction. Fry then testified that the next
day, December 28, Rabbitt pulled Fry, Bazyluk, and
Haglund into a conference room and began
pounding her fists on the table, saying “Arlene
works for me. She works for me. Do you
understand?” Id. at 336:17–18. Fry testified that
Rabbitt then made each of them repeat back to her,
“Arlene works for you.”
A third meeting occurred on December 29
with Fry, Haglund, and Bazyluk. Fry testified that
Haglund informed her that he “d[id] not have
enough work to justify to have an assistant of my
own. So Violetta [Bazyluk] and I have tried to find

40a
other work for you to do. No one has any work that
needs to be done. So we cannot find a full-time job
for you.” Id. at 338:9–17. The testimony is
conflicting as to who said what next. Fry testified
that Bazyluk proposed that she “work for Linda
[Rabbit] full time until we hire her replacement.
Then you will train the replacement and you will
move into the part-time position doing whatever
administrative work needs to be done. And on June
30th, your employment with Rand will end.” Id. at
339:7–11. Haglund, by contrast, testified that it
was Fry’s idea that she work until June 30, her
64th birthday, and that Fry “helped come up with”
the plan. Id. at 225:8, 226:25; see also Id. at 176:7–
17 (Bazyluk testifying that after hearing of the
plan, Fry was “happy” and “actually thanked us for
it,” and that June 30, 2017 was “when she wanted
to retire”). In any event, Bazyluk memorialized this
proposal in an email to Haglund and Fry that
afternoon. Pl.’s Ex. 17. Fry testified that she
understood by the end of the December 29 meeting
that she was being terminated under the proposed
arrangement. Trial Tr. 439:1–3.
On January 12, 2017, Fry received an email
from
Haglund,
containing
an
agreement
memorializing the proposal from the December 29
meeting as well as a “Release and Waiver
Agreement,” Pl.’s Doc. No. 28, which waived various
claims Fry might have against Rand, including
claims under the ADA and FMLA. Fry testified that
she “felt in [her] heart of hearts that five minutes
after [she] put [her] signature on that document
Rand was going to fire” her. Trial Tr. 344:1–3. Fry
told Bazaluck that she wanted to review the
agreement with her lawyer. Id. at 344:16–19.

41a
Fry never signed the Release and Waiver.
Rather, on January 23, 2017, she sent an email to
Haglund, with a copy to Bazyluk, in which she said
she was “writing to complain about the
discrimination and retaliation that I have suffered
at rand*,” and that she “reject[s] the company’s
[release and waiver] because it is retaliation for my
protected leave-taking and my revealing to the
company my disability and serious health
condition.” Pl.’s Ex. 8. The next day, Bazyluk took
Fry into Haglund’s office, where they asked her to
“tell [them] what’s been happening that . . . you
consider to be discrimination and retaliation.” Trial
Tr. 346:17–19. Fry responded, “[e]verything we
have talked about for the past month,” and gave
specific examples of incidents that had occurred. Id.
at 20–21. Bazyluk then asked what proof she had,
such as emails, voicemails, or witnesses, at which
point Fry said she felt “very uncomfortable” and
“threatened.” Id. at 348:7. On January 27, Haglund
sent an email to Fry to “follow up on our 75 minute
conversation . . . and provide a more comprehensive
response to” Fry’s January 23 email. Pl.’s Doc. No.
11. The email recounted that Rand had been having
“internal discussions” about replacing her since the
November 15 incident, and provided detailed
rebuttals of the specific incidents of discrimination
discussed at the meeting, saying that “none of these
statements, even if true, relates to a disability that
you may have . . . .” Id. The email closed by saying
that “[y]our performance in your current position
was not satisfactory to Linda, and there is currently
no open position for which you are qualified and
you could transfer.” Id. Haglund testified that as he
understood matters, Fry could either accept the
offered part-time position until June 30, or be

42a
terminated immediately, as there was no other
position for her. Trial Tr. 271:10–17.
Fry replied by email on February 2, saying
that Haglund “engaged in some revisionist history
in light of my January 23 email,” and that
Haglund’s “email is the first time I am learning
that Linda’s November 3 outburst was allegedly
because of a mistake in the scheduling of an
important conference call . . . .” Pl.’s Ex. 30. Fry
went on to say that “[s]ince returning from my
leave on December 12, 2016, Linda has been nonstop abusive toward me, and I feel that she is
treating me this way because of my medical leave.”
Haglund responded simply “[t]here are very many
misrepresentations in your email. Very sad.” Id. At
trial, Fry admitted that there were statements in
her February 2 email that were untrue. Trial Tr.
443:14–444:15.
On February 3, Fry received an email from
Rabbitt saying that Fry had not asked the IT
department to turn on her international plan for an
upcoming trip to Dublin, saying “[y]ou messed up.
This is what I’m talking about. I cannot rely on
you.” Trial Tr. 350:6–7. After Fry confirmed the
plan was turned on and told Rabbit, Rabbitt replied
“[w]hen I get in, you are so out of there.” Id. at 20–
21. 7 After Rabbitt returned to the office, Bazyluck
asked Fry to meet with her in Haglund’s office.
In a separate email from Rabbitt to Fry on February 3,
Rabbitt said “[w]hen I finally take a breathe [sic], it will be 6
or 7 pm. You will be gone.” Def.’s Ex. 32. Fry testified that
this was not the email in which Rabbitt indicated she would
terminate her, but another email not produced in discovery.
Trial Tr. 454:23–455:8.

7

43a
They then discussed Fry’s end of employment
paperwork and benefits before Bazyluk walked Fry
out of the building and to her car. Id. at 351:22–
354:4. Haglund testified that Fry was terminated
because she “didn’t agree to the scenario we came
up with,” and “because of increased mistakes and
falsehoods in her [February 2] e-mail.” Id. at 219:1–
9.
Shortly before and shortly after Fry’s
termination, Rand discovered that Fry had
forwarded to herself or printed out emails from
Rabbitt’s email account that Fry thought were
relevant to her claims of discrimination and
retaliation. Some of these emails were messages
that were related to her job duties, but others had
no relationship to any job duty, including one email
containing a picture of Rabbitt’s stye and another
involving
an
attorney-client
communication
concerning another employee that did not involve
Fry in anyway. Fry’s retention of these emails,
allegedly in violation of Rand’s personnel policies, is
the basis for Rand’s after-acquired evidence
affirmative defense.
On April 27, 2018, the jury returned a
verdict in favor of Fry with respect to Count I for
retaliation under the FMLA and awarded $50,555.
The jury found in favor of Rand with respect to
Counts II and III under the ADA and its
affirmative after-acquired evidence defense. The
jury also stated, in response to a special
interrogatory, that its damages award under Count
I was not reduced because of Rand’s after-acquired
evidence defense.

44a
II. LEGAL STANDARD
Under Fed. R. Civ. P 50, the Court may grant
a motion for judgment as a matter of law on a
particular issue if the Court concludes that “a
reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that
issue,” that is, that the jury’s findings on that issue
are not supported by substantial evidence. See
Wilhelm v. Blue Bell, Inc., 773 F.2d 1429 (4th Cir.
1985). In considering a motion under Rule 50, the
court “may not weigh the evidence, pass on the
credibility of the witnesses, or substitute [its]
judgment of the facts for that of the jury.”
Charleston Area Med. Ctr., Inc. v. Blue Cross and
Blue Shield, 6 F.3d 243, 248 (4th Cir. 1993)
(internal citations and quotation marks omitted).
While the Court must view the evidence presented
at trial in favor of the non-moving party, “[t]hat
deference to the jury’s findings is not . . . absolute: a
mere scintilla of evidence is insufficient to sustain
the verdict, and the inferences a jury draws to
establish causation must be reasonably probable.”
Id. Under Rule 59, “[t]he court should grant a new
trial only if 1) the verdict is against the clear
weight of the evidence, 2) is based on evidence
which is false, or 3) will result in a miscarriage of
justice, even though there may be substantial
evidence which would prevent the direction of a
verdict.” Dennis v. Columbia Colleton Med. Ctr.,
Inc., 290 F.3d 639, 650 (4th Cir. 2002).

45a
IV. ANALYSIS
a.

Fry is not entitled to judgment as
a matter of law on Rand’s afteracquired evidence defense. 8

In order to have prevailed on its afteracquired evidence defense at trial, Defendant
needed to prove that (1) the Plaintiff was guilty of
severe misconduct or wrongdoing; (2) the Defendant
was unaware of her conduct; and (3) the Defendant
in fact would have terminated the Plaintiff on those
grounds alone if they had known of her alleged
misconduct at the time of her discharge. McKennon
v. Nashville Banner Publ’g Co., 513 U.S. 352, 362–
62 (1995). Here, Defendant relies on Plaintiff’s
printing and emailing to herself multiple emails
that were not relevant to her duties as Rabbitt’s
assistant. These emails included emails related to
Rabbitt’s
health
and
an
attorney-client
communication concerning another employee.
The evidence presented, viewed most
favorably to the Rand, was sufficient for a jury to
reasonably conclude that the Fry had engaged in
sufficiently severe misconduct. The taking of the
emails violated her confidentiality agreement, see
Def.’s Ex. A, and the policies in the employee
handbook, which prohibited using the company’s
systems to “knowing open or review another
employee’s
email
or
voicemail
without
Although the Court’s decision to set aside the verdict as to
Count I technically moots plaintiff’s challenge to the jury’s
finding in favor of defendant on the after-acquired evidence
defense, the Court rules on Plaintiff’s Motion in order to
facilitate complete appellate review.
8

46a
authorization . . . or otherwise transmit confidential
or proprietary information or materials via e-mail
or the internet onto a personal device without
Company authorization,” Def.’s Ex. 44 at 30-31.
While Fry had authorization to access Rabbitt’s
email for the purposes of her job, many of the
emails she forwarded to herself or printed,
including the email about Rabbitt’s eye infection
and the attorney-client communication, were not
within the scope of her job duties; and Fry’s
accessing and printing those emails were “without
authorization” and in violation of the employee
handbook.
Plaintiff argues that “Defendant terminated
[her] because she was ‘building a case’ of
discrimination against Rabbitt, not because she
took proprietary information.” Pl.’s Reply 5.
Plaintiff relies on HR Director Bazyluk’s testimony
that “if we start looking at everybody’s e- mail in
the entire world, I’m sure we would have to fire the
entire world. Because everybody, somewhere at
some point would forward something to their
personal e-mail.” Trial Tr. 196:12197:1. Bazyluk
went on to testify that it would only be a fireable
offense to forward oneself email with “intent . . . to
use it against Rand or sell it for profit or release
trade secrets to somebody else,” and therefore there
were grounds to terminate Plaintiff because she
wanted to “use [the emails] to build a case against
Ms. Rabbitt . . . .” Id.
Plaintiff’s contemplation of protected activity
(i.e., “building her case”) did not give her license to
engage in prohibited conduct or access or retain
confidential emails—even if they are only shared

47a
with her attorney. See Laughlin v. Metropolitan
Was. Airports Auth., 952 F. Supp. 1129, 1137 (E.D.
Va. 1997) (holding that courts in such cases “should
proceed from the premise that it is a breach of the
employee’s obligations of honest and faithful service
to purloin and disseminate the employer’s
documents, particularly those which deal with
matters so intrinsically sensitive as personnel
disputes.”). Moreover, even though Rand may have
been aware that Fry had already accessed some
emails when it terminated her on February 3, 2017,
it did not learn about the volume of emails taken,
and that the attorney-client email was among them
until after her termination. Overall, the evidence
was sufficient for a juror to reasonably conclude
that had Defendant been aware of the totality of
the retained emails, it would have terminated
Plaintiff. 9
Plaintiff cites O’Day v. McDonnell Douglas Helicopter Co., 79
F.3d 756, 762 (9th Cir. 1996) for the proposition that an
employer may not succeed “based only on bald assertions that
an employee would have been discharged for the laterdiscovered misconduct.” O’Day, 79 F.3d at 762, quoted in Pl.’s
Mem. in Supp. 14–15. However, in O’Day, court found “ it
significant that [the employer’s] testimony is corroborated by
both the company policy, which plausibly could be read to
require discharge for the conduct at issue here, and by
common sense,” and that “[t]here is nothing inherently
incredible about [an employer] asserting that it would
discharge an employee . . . for sneaking into his supervisor’s
office, stealing sensitive documents pertaining to employment
matters, and showing them to one of the very people affected
by the documents.” Id. Rand’s after-acquired evidence defense
is similarly supported by the testimony of the relevant
decision-makers at Rand—Rabbit, Haglund, and Bazyluk—
and corroborated by the employee handbook admitted into
evidence, as well as common sense. Fry also argues that the
evidence was insufficient to sustain Rand’s after-acquired
9

48a
Accordingly, Defendant produced sufficient
evidence at trial for a reasonable jury to have found
in its favor on its after-acquired evidence defense,
and Fry’s Motion will therefore be DENIED.
b.

The
evidence
at
trial
was
insufficient to support the verdict
on FMLA retaliation (Count I).

Defendant has moved for judgment as a
matter of law regarding Count I for FMLA
retaliation. The FMLA provides, in relevant part,
that “[i]t shall be unlawful for any employer to
interfere with, restrain, or deny the exercise of or
the attempt to exercise, any right provided” by the
FMLA. 29 U.S.C. § 2615(a)(1). In order to establish
a prima facie case of FMLA retaliation at trial, Fry
was required to establish that (1) she engaged in
protected conduct; (2) she suffered an adverse
employment action; and (3) such action was caused
by her protected conduct. In order to show
causation, a plaintiff must show that her employer
would not have taken the adverse employment
action but for her protected activity. See Adams v.
Anne Arundel Cnty Pub. Schs., 789 F.3d 422, 429
(4th Cir. 2015) (“Retaliation claims brought under
the FMLA are analogous to those brought under
evidence defense because the jury needed to rely on testimony
from “interested witnesses,” particularly Rabbitt. See Fry
Reply 8 (“As discussed below, every single case cited by
Defendant supports this notion that the testimony of its own
interested witnesses is not enough to meet its burden.”)
(emphasis in original). But if Plaintiff’s approach to this
element of the after-acquired evidence defense were adopted,
it would be difficult for a company to make out the defense,
since only “interested witnesses” are typically involved in the
termination giving rise to the claim.

49a
Title VII.”); Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 360 (2013) (“Title VII retaliation
claims must be proved according to traditional
principles of but-for causation . . . . This requires
proof that the unlawful retaliation would not have
occurred in the absence of the alleged wrongful
action or actions of the employer.”); see also
Gourdeau v. City of Newton, 238 F. Supp. 3d 179,
194 (D. Mass. 2017) (holding that the plain
language of the FMLA requires the “but for”
standard and that a contrary Department of Labor
regulation is not entitled to Chevron deference).
“Retaliation claims can be proven by either
the submission of direct evidence of retaliatory
animus or the use of the McDonnell Douglas
burden-shifting framework.” United States ex rel.
Cody v. Mantech Int’l Corp., Nos. 17-1722, 17-1757,
2018 WL 3770141 at *7 (4th Cir. Aug. 8, 2018)
(applying McDonnell Douglas to a motion under
Rule 50; citing McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973)). Under McDonnell Douglas,
the plaintiff has the initial burden of showing a
prima facie case of retaliation based on the
elements outlined above. Once a prima facie case is
established, the burden shifts to the defendant to
articulate a legitimate, non-retaliatory reason for
the adverse employment action. The burden then
shifts back to the plaintiff to demonstrate that the
defendant’s purported reason was simply a pretext
for retaliation. See Foster v. Univ. of Md.-Eastern
Shore, 787 F.3d 243, 250 (4th Cir. 2015). The
ultimate burden of persuasion always lies with the
plaintiff.

50a
Fry met her initial burden of making out a
prima facie case of retaliation. The parties do not
dispute that Fry’s leave-taking was protected
activity or that her termination was protected
activity. Plaintiff argues that in addition to her
leave-taking, she also engaged in protected conduct
by complaining of retaliation in response to her
leave-taking in emails she sent on January 23,
2017 and February 2, 2017. But the uncontested
evidence is that the decision to terminate Fry’s
employment was made before January 23, 2017.
See Trial Tr. 439:1–3 (Fry testifying that the plan
presented at the December 29 meeting was a
termination); see also Pl.’s Ex. 8 (Fry complaining
that the proposal that she leave the company by
June 30, 2017 was “retaliation for [her] protected
leave-taking”). For these reasons, the evidence,
viewed most favorably to Fry, establishes that the
only protected activity that could have occurred
before Rand decided to terminate Fry is her leavetaking from November 28 to December 12, 2016.
Fry has also established the causation
element of her prima facie case through
demonstrating a temporal proximity between her
taking FMLA leave between November 23 and
December 12, 2016 and the decision to terminate
her that was conveyed to her on December 29,
2016. See, e.g., Foster, 787 F.3d at 253(a one month
temporal proximity between protected activity and
termination “tends to show causation.”); King v.
Rumsfeld, 328 F.3d 145 at 151 n.5 (4th Cir. 2003)
(holding that a two and a half month gap between
an employee’s protected activity and her
termination was sufficient to meet the plaintiff’s
prima facie causation burden, but not to overcome

51a
the defendant-employer’s
reason).

proffered

legitimate

Fry having established her prima facie case,
Rand was obligated to assert a legitimate nonretaliatory reason to avoid liability. Rand satisfied
that burden by asserting that Fry was terminated
due to problems with her job performance that
predated her FMLA leave. That assertion shifted
the burden back to Fry to introduce evidence that
Rand’s proffered reason was untrue or a pretext for
retaliation.
Fry failed to carry that burden. She failed to
introduce evidence from which a jury could
reasonably find that Rand’s proffered reason was
untrue or a pretext. Fry herself confirmed that
Rabbitt’s unhappiness with her performance was
long standing and deeply rooted. Fry failed to
present evidence sufficient to allow a reasonable
juror to essentially ignore Rand’s uncontradicted
evidence that Rabbitt had made the decision to
terminate her after the performance issues that
occurred in November, 2016—before Fry requested
FMLA leave or disclosed her MS—even though that
decision was not implemented until after she
returned from FMLA leave. Where, as here, the
employer-defendant had already decided to
terminate the employee before she engaged in
protected conduct, the employer is entitled to
“proceed[] along lines previously contemplated,”
even if the timing and other details are “not yet
definitively determined.” Clark v. Cty. Sch. Dist. v.
Breeden, 532 U.S. 268, 272 (2001).

52a
In attempting to establish causation in the
face of Rand’s proffered reason for termination, Fry
relies heavily on Williams v. Ricoh Americas, Corp.,
203 F. Supp. 3d 692 (E.D. Va. 2016) and Rabbitt’s
abusive statements following Fry’s return. The
Williams case involved an employer who had
tolerated
an
employee’s
below-average
performance, but began to “subject” that employee
“to increased scrutiny and discipline only after his
[protected activity],” giving rise to a reasonable
inference of retaliation. Williams, 203 F. Supp.3d at
698. Williams is distinguishable on its facts. In that
case, there was evidence that after the employee’s
protected activity, the employer “made the decision
at [that] moment that [he] would document
significant issues” with the employee’s performance
that had previously gone undocumented. Id. Here,
there is no evidence of Rand documenting as
unacceptable previously accepted performance
issues; Fry’s performance issues had been well
documented for months before her protected
activity.
Even if the jury had accepted wholesale Fry’s
disputed recollections of Rabbitt’s comments after
she returned from leave, those comments do not
give rise to a reasonable inference of animus
towards FMLA leave-taking. 10 Indeed, based on

For example, Rabbitt’s accusation, as related by Fry, that
Fry was “on a cruise” during her FMLA leave does not
evidence animus toward FMLA leave taking but, at most, an
animus toward abusing FMLA leave taking or taking it for
improper purposes. See e.g., Mehta v. Potter, 07-cv-1257
(AJT/TRJ), 2009 WL 1598403, at *9-10 (comments by
employer that an employee was “making things hard for
10

53a
Fry’s own testimony, there was little difference in
Rabbitt’s disposition toward her before and after
her FMLA leave; Fry testified that Rabbitt was
“chronically unhappy” with her after the November
15 incident and that her performance issues, or at
least Rabbitt’s perception of her performance
issues, continued after she returned from leave.
Ultimately, Fry’s evidence of causation reduced to
nothing more than evidence of temporal proximity
that was insufficient to allow a jury to find in Fry’s
favor in the face of the evidence showing Rand’s
legitimate decision to terminate Fry based on
longstanding performance issues that predated
Fry’s leave-taking. The jury’s verdict with respect
to Count I must therefore be set aside. For the
same reasons, because the weight of the evidence is
so heavily in favor of Rand as to Count I, the Court
conditionally orders a new trial if the judgment is
later vacated or reversed.
IV. CONCLUSION
For the foregoing reasons, it is hereby
ORDERED that Plaintiffs Rule 50 Motion for
Judgment as a Matter of Law [Doc. No. 130) be,
and the same hereby is, DEN£ED; and it is further
ORDERED that Defendant's Motion for
Judgment as a Matter of Law or for a New Trial
[Doc. No. 133) be, and the same hereby is,
GRANTED; and it is further

yourself” and “mean[s] nothing to me” in response to FMLA
activity did not “evince retaliatory animus”).

54a
ORDERED that the verdict in favor of
Plaintiff as to Count I be, and the same is, hereby is
VACATED and set aside, and judgment shalI be
ENTERED in favor of Defendant as to Count I; and
it is further
ORDERD that in the event this Order is
later vacated or reversed a new trial be, and the
same hereby is, conditionally GRANTED as to
Count I.
The Clerk is directed to forward copies of
this Order to all counsel of record and to enter
judgment in favor of Defendant Rand pursuant to
Fed. R. Civ. P. 58.
/s/
Anthony J. Trenga
United States
District Judge
Alexandria, Virginia
August 22, 2018

55a
[ENTERED: April 20, 2018]
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ARLENE FRY,

)
)
Plaintiff,
)
)
v.
)
)
RAND CONSTRUCTION )
CORP.,
)
Defendant. )
)

Civil Action
No.1: l 7-cv-0878
(AJT/TCB)

ORDER
This matter is before the Court on (1)
Plaintiff Arlene Fry’s Motion in Limine [Doc. No.
71]; and (2) Defendant’s Motion in Limine [Doc. No.
72]. On April 13, 2018, the Court held a hearing on
the Motions. At the hearing, the Court granted
Plaintiffs Motion as to its request to ask leading
questions in the direct examination of Defendant’s
employees. The Court otherwise took the Motions
under advisement. The remaining issues in the
Motions are (1) whether to permit the testimony of
Susan Boyle; (2) whether to admit Plaintiffs Exhibit
22, an email from Linda Rabbitt to Dawn Sheridan;
and (3) whether to allow counsel to conduct voir dire
examination of the jurors. 1 For the reasons set forth
Defendant's Motion in Limine also sought to exclude testimony
of Danna Delverme. However, Plaintiff has advised that she does

1

56a
below, the Court will exclude the testimony of Susan
Boyle, admit Plaintiff’s Exhibit 22 with redactions,
and conduct the voir dire in accordance with its
standard practice.
ANALYSIS
A.

Evidence pertaining to
Boyle will be excluded.

Susan

Plaintiff moves to admit, and Defendant
moves to exclude, the testimony of Susan Boyle,
Linda Rabbitt’s former executive assistant whose
employment ended in 2008. In 2008, Boyle suffered
a neck injury that required surgery and took
advantage of Rand’s medical leave policy, which
allowed her to take six weeks of leave to recover
from a documented illness. Boyle Depo. 41:17-42:6.
Under the company’s policy then in effect after six
weeks, Rabbitt, as Boyle’s supervisor, “would
determine whether [her] being out was a hardship
on them.” Id at 41:21-42:2. At the end of her six
weeks of leave, Boyle reported to Patty Ulrich,
Rand’s HR Director, that her doctor recommended
that she should not return to work for another two
weeks and therefore would not return at the end of
her six weeks of leave. Ulrich consulted with
Rabbitt, who indicated that Boyle’s continued
absence would be a hardship. Because Boyle’s leave
had expired, and because Rand did not have a leavewithout-pay program, Ulrich made the decision to
terminate Boyle’s employment unless she returned
to work, which she failed to do. Boyle claims that
not intend to call that witness; and Defendant's Motion is
therefore moot to that extent.

57a
Rand terminated her; Rabbit testified that Boyle
resigned.
Boyle did not work with Plaintiff, was not
employed by Defendant at the same time as
Plaintiff, and cannot provide any direct evidence
relating to Plaintiff’s work performance, disability,
or the circumstances of her termination. Instead,
Plaintiff intends to offer Boyle’s testimony regarding
her own termination as evidence of Defendant’s
intent in terminating Plaintiff. The Supreme Court
has held that “other-employee” evidence in an
individual discrimination case “is neither per se
admissible nor per se inadmissible.” Sprint/United
Mgmt. Co. v. Mendelsohn, 552 U.S. 379, 380 (2008).
Rather, in determining the admissibility of such
evidence, courts consider “whether the other
discriminatory behavior described ‘is close in time to
the events at issue in the case, whether the same
decisionmakers were involved, whether the
witnesses and the plaintiff were treated in a similar
manner, and whether the witness and the plaintiff
were otherwise similarly situated.”‘ Calobrisi v.
Booz Allen Hamilton, Inc., 660 Fed. App’x 207,210
(4th Cir. 2016) (quoting Griffin v. Finkbeiner, 689
F.3d 584, 599 (6th Cir. 2012)). While “[a]s a general
rule, the testimony of other employees about their
treatment by the defendant is relevant to the issue
of the employer’s discriminatory intent,” Spulak v. K
Mart Corp., 894 F.2d 1150, 1156 (10th Cir. 1990),
the Court must determine whether the probative
value of the witness’s testimony is substantially
outweighed by, inter alia, unfair prejudice,
confusing the issues, or misleading the jury. Fed. R.
Evid. 403.

58a
Here, Boyle’s and Fry’s adverse employment
actions were not “close in time.” Boyle was
terminated in 2008, while Fry was terminated some
eight years later in 2017. While both terminations
occurred against the backdrop of medical conditions,
the circumstances of their termination were
otherwise markedly different. Fry has a chronic
disease for which she took two weeks of her
available FMLA leave in November, 2016 before
returning to work. After returning from her leave,
Fry continued working for two months before being
terminated in February, 2017 after refusing a
proposed severance arrangement. Boyle, by
contrast, did not return to work, but was terminated
when she was unable to return after her six weeks
of leave expired. Boyle also did not suffer from a
chronic illness as Fry does here; she had a neck
injury that required surgery from which she was
recovering. Nor did Boyle take FMLA leave; she had
been working for Rand for only seven months at the
time of her injury and therefore was not entitled to
FMLA leave.
The probative value of Boyle’s testimony
regarding Rabbitt’s intent is further weakened
given the involvement of Ulrich, the application of
an established company policy, and the less than
clear merits of any claim that Boyle’s employment
was unlawfully terminated, even viewing the facts
most favorably to Boyle. See Brown v. Greenspring
Village, Inc., No. 1:08-cv-1043 (LMB/TRJ), 2009 WL
10677267 at *3 (E.D. Va. August 21, 2009) (holding
that terminating an employee who was unable to
return to work after exhausting her FMLA leave
does not violate her rights under the FMLA).

59a
Boyle’s testimony about her termination
would also be highly prejudicial to Rand. No matter
how the evidence is presented or argued, the
evidentiary value of Boyle’s experience unavoidably
reduces to what the jury will understand as
evidence of Rabbitt’s general disposition against
those with disabilities or those who take leave, with
the jury necessarily inferring “intent” as to Fry
based only on an inference that Rabbitt acted in
conformity with her general character or
disposition. Such evidence of character or prior bad
acts is expressly barred by Federal Rule of Evidence
404. See Fed. R. Evid. 404(a) (“Evidence ofa person’s
character or character trait is not admissible to
prove that on a particular occasion the person acted
in accordance with the character or trait.”). 2
Finally, Boyle’s testimony threatens to
confuse the issues for the jury and unnecessarily
lengthen this case by creating a “trial within a
trial.” At the hearing on the Motions, the parties
disputed whether Boyle’s rights were violated when
she was terminated and whether, based on a change
in the law since 2008, Rand’s conduct against Boyle
would have violated her rights today. That evidence
would likely stream off into evidence about Boyle’s
job performance, the extent to which her continued
absence for another two weeks after six weeks of
leave would cause a hardship, and whether any
claim of hardship was pretext for unlawful
discrimination. For all these reasons, any probative
value that Boyle’s termination in 2008 has with
Plaintiff does not contend otherwise, as evidenced by her
failure to respond to this argument in her Response to
Defendant’s Motion in Limine [Doc. No. 77].
2

60a
respect to Rand’s intent as to Fry in 2016 is
substantially outweighed by the unfair prejudice
that would attend that evidence.
B.

Plaintiff’s Exhibit
excluded in part.

22

will

be

Defendant seeks to exclude all “[e]vidence,
testimony and arguments relating to Plaintiffs
‘regarded as’ disabled claim as irrelevant . . . .”
Def.’s Mem.in Supp. [Doc.No.72-1] 3. As a general
matter, because the Court dismissed Plaintiffs
“regarded as disabled” claim, any evidence relevant
to her “regarded as disabled” claim that is not
independently relevant will be excluded. However,
the only specific piece of evidence Defendant seeks
to exclude at this point, Plaintiffs Exhibit 22, is at
least partially relevant to Plaintiffs remaining
claims. Plaintiffs Exhibit 22 is an email from
Rabbitt to Rand Director of Recruitment Dawn
Sheridan sent on March 29, 2016 saying, in relevant
part, “I think when [Fry] takes her medication for
bi-polar or whatever she has, she becomes a snail
. . . .” This statement has some probative value to
Fry’s claims of discrimination under the FMLA and
ADA because it evidences Rabbitt’s consciousness
that Fry may have a disability that was affecting
her work.
Fry has previously centrally relied on this email and its reference to “bi-polar” to support her
“regarded as disabled” claim. The Court dismissed
that claim, and in its absence, the probative value of
the reference to “bi-polar or whatever she has,” if
any, relates to Rabbitt’s disposition or character; to
the extent it has any probative value as to Rabbitt’s

61a
intent nearly a year later, within an entirely
different context, that probative value is
substantially outweighed by its unfair prejudicial
effect and its potential to confuse the jury as to the
allowable basis for Plaintiff’s claim. Accordingly, the
phrase “bi-polar or whatever she has” is excluded
under Fed. R. Evid. 404, and the email is otherwise
admissible with that phrase redacted.
C.

The Court will conduct the voir
dire examination of the witnesses.

After consideration of the arguments in
Plaintiffs Motion and at the April 13, 2018 hearing,
the Court will conduct the voir dire in accordance
with its standard practice.The Parties have
provided the Court with their suggested voir dire,
which the Court will consider in conducting its voir
dire.
CONCLUSION
For the above reasons, it is hereby
ORDERED that Plaintiffs Motion in Limine
[Doc. No. 71] be, and the same hereby is, DENIED
as to the testimony of Susan Boyle and the request
to allow counsel to conduct voir dire; and it is
further
ORDERED that Defendant’s Motion in
Limine [Doc. No. 72] be, and the same hereby is,
GRANTED in part. It is granted to the extent that
Susan Boyle’s testimony, any evidence of her
termination, and any evidence solely relevant to
Plaintiffs dismissed “regarded as disabled”

62a
discrimination claim will be excluded; and it is
otherwise DENIED as to Plaintiffs Exhibit 22,
which will be admitted with the phrase “bi-polar or
whatever she has” redacted.
The Clerk is directed to forward copies of this
Order to all counsel of record.
/s/
Anthony J. Trenga
United States
District Judge
Alexandria, Virginia
April 20, 2018

63a
[ENTERED: July 28, 2020]
FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2083
(1:17-cv-00878-AJT-TCB)
ARLENE FRY
Plaintiff - Appellant
v.
RAND CONSTRUCTION CORPORATION
Defendant - Appellee

ORDER
The court denies the petition for rehearing
and rehearing en banc. No judge requested a poll
under Fed. R. App. P. 35 on the petition for
rehearing en banc.
Entered at the direction of the panel: Judge
Niemeyer, Judge Motz, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

